NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1615

UNITED STATES OF AMERICA
v.
KRISHNA MOTE,
aka “Chris”
aka “Kris”,
Appellant

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Criminal Action No. 3:1 l-cr-00194-001)
District Judge: Honorable James M. Munley
mh

Submitted Pursuant to Third Circuit LAR 34.1(a)
October 23, 2020
Before: GREENAWAY, JR., KRAUSE and BIBAS,'Circuit Judges
(Opinion filed: December 10, 2020)

OPINION*

PER CURIAM

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Krishna Mote appeals pro se appeals from an order of the United States District
Court for the Middle District of Pennsylvania denying his motion to reduce his sentence
under section 404 of the First Step Act of 2018. We will affirm.
In 2007, a federal grand jury indicted Mote on charges of conspiring to distribute
more than 50 grams of crack cocaine and 500 grams of powder cocaine. The District
Court ultimately dismissed that indictment without prejudice due to a speedy trial
violation. In 2011, the Government obtained another indictment against Mote based on
the same conspiracy, but this time it charged that the conspiracy involved 280 grams of
crack cocaine, along with 500 grams of powder cocaine. In 2012, a jury found Mote
guilty of (1) conspiring to distribute 280 grams or more of crack cocaine and 500 grams
or more powder cocaine, see 21 U.S.C. § 846, and (2) aiding and abetting the distribution
of crack cocaine, see 21 U.S.C. § 841(a)(1); 18 U.S.C. § 2. In May 2013, the District
Court imposed a mandatory sentence of life imprisonment on the conspiracy conviction' .
(based on Mote’s prior felony drug convictions, see 21 U.S.C. § 841(b)(1)(A) (2010)),
and sentenced Mote to 360 months in prison on the aiding and abetting conviction. We
l\
affirmed. See United States v. Mote, 553 F. App’x 117, 118 (3d Cir. 2014) (not
precedential) (noting that, “with three prior felony convictions, the District Court
properly sentenced [Mote] to a mandated life imprisonment.”), cert, denied, 134 S. Ct.
2716. Mote filed a pro se motion under 28 U.S.C. § 2255. The District Court denied that
motion on the merits, and we denied a certificate of appealability. See United States v.
Mote, C.A. No. 15-1409 (order entered Nov. 3, 2015). On October 6, 2017, President
2

Obama granted clemency, and Mote’s sentence was commuted to 240 months of
imprisonment.
In November 2019, Mote filed a pro se “Motion for Hearing and Reduced
Sentence Under the First Step Act.”1 (ECF 178.) The Government opposed that motion,
arguing that Mote was not entitled to relief because he had already been sentenced in
accordance with the First Step Act, which made retroactive certain provisions of the Fair
Sentencing Act. (ECF 112.) The District Court denied the motion, holding that “Mote
has already received the benefit of the Fair Sentencing Act’s relevant modifications ....”
Mote appealed.2
In 2010, Congress enacted the Fair Sentencing Act, which reduced the sentencing
disparity between crack cocaine and powder cocaine. Dorsey v. United States, 567 U.S.
260, 269 (2012); see also United States v. Jackson, 964 F.3d 197, 200 n.2 (3d Cir. 2020).
Section 2 of the Fair Sentencing Act increased the quantity of cocaine base required to :
trigger mandatory minimum sentences.3 For example, it raised the threshold for the 10-

1 Pursuant to a standing order pertaining to actions brought under Section 404 of the First
Step Act, the District Court appointed the Federal Public Defender’s Office to represent
Mote. (ECF 179.) That Office later successfully moved to withdraw, noting that it “and
Mr. Mote have a difference of opinion concerning the application of... the First Step Act
to the facts of his case.” (ECF 180).
2 We have jurisdiction under 28 U.S.C. § 1291, and we exercise plenary review over the
District Court’s order. See United States v. Easter, -- F.3d 2020 WL 5525395, at *3
(3d Cir. Sept. 15,2020).
3 Section 3 of the Fair Sentencing Act, which is not relevant here, eliminated the
mandatory minimum for simple possession in violation of 21 U.S.C. § 844(a). See
United States v. Shaw. 957 F.3d 734, 736 (7th Cir. 2020).
3

1ST

year mandatory minimum sentence from 50 grams to 280 grams. Id. at 269. The First
Step Act, enacted in 2018, made Sections 2 and 3 of the Fair Sentencing Act retroactively
applicable. See Easter. 2020 WL 5525395, at *2; see also United States v. Boulding, 960
F.3d 774, 777 (6th Cir. 2020). In particular, Section 404(b) of the First Step Act
provided that the court “that imposed a sentence for a covered offense may, on motion of
the defendant... impose a reduced sentence as if sections 2 and 3 of the Fair Sentencing
Act of 2010 ... were in.effect: at the time the covered offense was committed.” § 404(b),
132 Stat. 5194, 5222. Notably, however, the First Step Act expressly prohibited
application of 404(b) where the “sentence was previously imposed or previously reduced
in accordance with the amendments made by sections 2 and 3 of the Fair Sentencing Act
....” First Step Act, Pub. L. No. 115-391,.§ 404(c), 132 Stat. at 5222. Here, the District.
Court sentenced Mote in May 2013, several years after the Fair Sentencing Act was
enacted. Thus, Mote already received the benefit of the Fair Sentencing Act’s reduced
penalties for crack-cocaine offenses.4 See Dorsey v. United States, 567 U.S. 260, 281

4 In his brief, Mote notes that the Government stated in its response to his § 2255 motion
that his,“sentence in this case was not.determined by the Fair Sentencing Act or by the
sentencing guidelines.” Pet’r’s Br., 4. Read in context, however, it appears that the
Government was not asserting that Mote was subject to a pre-Fair Sentencing Act
sentencing scheme. Rather, the Govemmentseemingly was noting that Mote’s
mandatory life sentence was imposed as a result of his prior felony convictions. (ECF
148, at 9.) In any event, it is clear from the record that Mote was sentenced' in
accordance with the Fair Sentencing Act, which changed the law in his favor by
increasing the quantity of crack cocaine needed to trigger mandatory minimum penalties.
Before the Fair Sentencing Act, and at the time of Mote’s conduct, Mote would have
been subject to a sentence of life imprisonment even if his conviction involved only 50
4

(2012) (concluding that “that Congress intended the Fair Sentencing Act’s new, lower
mandatory minimums to apply to the post-Act sentencing of pre-Act offenders”).
Accordingly, the District Court properly concluded that Mote is not eligible for relief
under section 404(b) of the First Step Act. See United States v. Jones. 962 F.3d 1290,
1297 (11th Cir. 2020) (stating that “[a] district court may not ‘entertain a motion’ from a
defendant who already benefitted from the Fair Sentencing Act by having his sentence
imposed or reduced ‘in accordance with’ sections two or three of the Fair Sentencing
Act”).

For the foregoing reasons, we will affirm the District Court’s judgment.

grams of crack cocaine. See 21 U.S.C. § 841(b)(1)(A) (2006 version).
5

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1615

UNITED STATES OF AMERICA
v.
KRISHNA MOTE,
aka “Chris’*
aka “Kris”,
Appellant

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Criminal Action No. 3:1 l-cr-00194-001)
District Judge: Honorable James M. Munley

Submitted Pursuant to Third Circuit LAR 34.1(a)
October 23, 2020
Before: GREENAWAY, JR., KRAUSE and BIB AS, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the Middle District of Pennsylvania and was submitted pursuant to Third
Circuit LAR 34.1(a) on October 23, 2020. On consideration whereof, it is now hereby

ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered March 13, 2020, be and the same is hereby affirmed. Costs are not taxed. All of
the above in accordance with the opinion of this Court.

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: December 10, 2020

•vr *

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1615

UNITED STATES OF AMERICA
v.
KRISHNA MOTE,
aka" Chris
aka "Kris",
Appellant

On Appeal from the United States District Court
For the Middle District of Pennsylvania
(D.C. Criminal No. 3-1 l-cr-00194-1)
District Judge: Honorable James M. Munley

PETITION FOR REHEARING

Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges.
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated’in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Joseph A. Greenaway, Jr.
Circuit Judge
Dated: June 11, 2021
PDB/cc: Krishna Mote
Francis P. Sempa, Esq.

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
No. 3:11cr194
No. 3:14cv1717
(Judge Munley)

UNITED STATES OF AMERICA
v.
KRISHNA MOTE,
Defendant

ORDER
Presently before the court are the following two motions: (1) a pro se
“Motion for Hearing and Reduced Sentence Under the First Step Act,” filed by the
defendant, Krishna Mote, (Doc. 178); and (2) a Motion to Withdraw as Counsel,
filed by the Federal Public Defender’s Office. (Doc. 180). These motions are
now ripe for disposition.
Background and Procedural History
On June 7, 2011, a federal grand jury returned a two (2) count indictment
against Defendant Mote that charged him with: conspiracy to distribute in excess
of 280 grams of cocaine base (crack) and in excess of 500 grams of cocaine, in
violation of 21 U.S.C. § 846 (“Count 1”); and aiding and abetting the possession
and distribution of cocaine base (crack), in violation of 21 U.S.C. § 841(a)(1) and
18 U.S.C. § 2 (“Count 2”). (Id.) On December 6, 2012, a jury found Defendant
Mote guilty on both counts. (Doc. 103, Verdict). On May 15, 2013 Defendant
Mote was sentenced to a term of life imprisonment for Count 1 and a term of 360

months’ imprisonment for Count 2. (Doc, 136, Judgment). The United States
Court of Appeals for the Third Circuit affirmed Defendant Mote’s sentence on
January 31, 2014; however, United States President Barack Obama commuted
Defendant Mote’s life sentence to a term of 240 months’ imprisonment on
October 6, 2016. (Doc. 138, Judgment of USCA; Doc. 155, Executive Grant of
Clemency).
After a lengthy procedural history, Defendant Mote filed the instant Motion
for Reduction of Sentence on November 6, 2019. (Doc. 178). The Federal
Public Defender’s Office was appointed to represent Defendant Mote pursuant to
the court’s Standing Order 19-01, (Doc. 179), but filed a motion to withdraw as
counsel on November 13, 2019. (Doc. 180, Mot. to Withdraw). Upon the court’s
direction, the government filed a brief in opposition to Defendant Mote’s motion
on December 23, 2019. (Doc. 182). Defendant Mote subsequently filed a reply
brief on January 3, 2020, bringing this case to its present procedural posture.
(Doc. 183).
Discussion
In his motion, Defendant Mote seeks to reduce his sentence pursuant to
Section 404 of the First Step Act, Pub. L. No. 115-391, 132 Stat. 5194 (2018).
The government argues that the First Step Act does not provide Defendant Mote
with the relief he seeks, as he was already sentenced in accordance with the Fair
2

Sentencing Act of 2010, Pub. L. No.111-220, 124 Stat. 2372 (2010). After
careful consideration, we agree with the government.
To reduce the sentencing disparity between cocaine and cocaine base
(crack) offenses, Congress, through Section 2 of the Fair Sentencing Act of 2010
(the “Fair Sentencing Act”), increased the amount of cocaine base that subjects
criminal defendants to the five-year and ten-year mandatory minimum sentences
enumerated by 21 U.S.C §§ 841 (b)(1 )(A)(iii) and 841 (b)(1 )(B)(iii). See Fair
Sentencing Act of 2010, Pub. L. No. 111-220, §2, 124 Stat. 2372, 2372 (2010).
*

Specifically, Section 2 of the Fair Sentencing Act increased the threshold quantity

i

of cocaine base from “50 grams” to “280 grams” with respect to 21 U.S.C. §
841 (a)(1 )(A)(iii), and from “5 grams” to “28 grams” with respect to 21 U.S.C. §
841 (b)(1 )(B)(iii). hi at § 2(a).
On December 21, 2018, Congress enacted the First Step Act, which gave
retroactive effect to Section 2 of the Fair Sentencing Act. See First Step Act of
2018, Pub. L. No. 115-391, §404, 132 Stat. 5194, 5222 (2018). In relevant part,
the First Step Act authorizes federal district courts, on a motion made by the
defendant, to impose a reduced sentence for a covered crack offense as if
Section 2 of the Fair Sentencing Act was in effect when the covered offense was
committed. Id. at § 404(b). As defined under the First Step Act, a “covered
offense” is a “violation of a Federal criminal statute, the statutory penalties for
3

?'y

which were modified by section 2 ... of the Fair Sentencing Act. .

that was

committed before August 3, 2010.” id. at § 404(a). There are certain limitations
to the First Step Act, however, insofar as a court may not entertain a motion
under its provisions if a defendant’s sentence “was previously imposed, or
previously reduced, in accordance with the amendments made by section[] 2 . . .
of the Fair Sentencing Act...” jd. at § 404(c).
Here, Defendant Mote was both indicted and sentenced after the Fair
Sentencing Act came into effect. See United States v. Dixon. 648 F.3d 195, 203
(3d Cir. 2011) (holding that the “[Fair Sentencing Act] requires application of the
new mandatory minimum sentencing provisions to all defendants sentenced on
or after August 3, 2010, regardless of when the offense conduct occurred.”).
Count 1 of the indictment, of which a jury found Defendant Mote guilty beyond a
reasonable doubt for conspiring to distribute or possessing with intent to
distribute 280 grams or more of cocaine base, also reflects the amended weight
for cocaine base offense penalties articulated in Section 2 of the Fair Sentencing
Act. Compare 21 U.S.C. § 841 (b)(1)(A)(iii) (effective Aug. 3, 2010 to Dec. 20
2018) (imposing a mandatory minimum sentence for violations of § 841(a) that
involve 280 grams or more of cocaine base) with 21 U.S.C. § 841 (b)(1 )(A)(iii)
(effective Apr. 15, 2009 to Aug. 2, 2010) (imposing a mandatory minimum
sentence for violations of § 841(a) that involve 50 grams or more of cocaine
4

base). Therefore, Defendant Mote has already received the benefit of the Fair
Sentencing Act’s relevant modifications under Section 2, which increased the
threshold amounts necessary to trigger the mandatory minimum sentences for
certain crack cocaine offenses. As such, the court cannot consider Defendant
Mote’s motion pursuant to the limitations set forth in § 404(c) of the First Step
Act.
AND NOW, IT IS HEREBY ORDERED THAT the defendant’s pro se
“Motion for Hearing and Reduced Sentence Under the First Step Act,” (Doc.
178), is DENIED and the Federal Public Defender’s Office Motion to Withdraw as $
Counsel, (Doc. 180), is GRANTED.

BY THE COURT:

Date: March 12, 2020

Is James M. Munlev
JUDGE JAMES M. MUNLEY
UNITED STATE DISTRICT COURT

5

